<html>
<title> - EXAMINING CARCINOGENS IN TALC AND THE BEST METHODS FOR ASBESTOS DETECTION</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                 EXAMINING CARCINOGENS IN TALC AND THE
                  BEST METHODS FOR ASBESTOS DETECTION

=======================================================================

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON ECONOMIC AND CONSUMER POLICY

                                 OF THE

                         COMMITTEE ON OVERSIGHT
                               AND REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION
                               __________

                           DECEMBER 10, 2019
                               __________

                           Serial No. 116-76
                               __________

      Printed for the use of the Committee on Oversight and Reform
      

                  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
                  
                  
                  Available on: http://www.govinfo.gov
                    http://www.oversight.house.gov or
                        http://www.docs.house.gov
                  
                             ___________

                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
38-735 PDF                WASHINGTON : 2020                
                  
                  
                  
                  
                    COMMITTEE ON OVERSIGHT AND REFORM

                CAROLYN B. MALONEY, New York, Chairwoman

Eleanor Holmes Norton, District of   Jim Jordan, Ohio, Ranking Minority 
    Columbia                             Member
Wm. Lacy Clay, Missouri              Paul A. Gosar, Arizona
Stephen F. Lynch, Massachusetts      Virginia Foxx, North Carolina
Jim Cooper, Tennessee                Thomas Massie, Kentucky
Gerald E. Connolly, Virginia         Mark Meadows, North Carolina
Raja Krishnamoorthi, Illinois        Jody B. Hice, Georgia
Jamie Raskin, Maryland               Glenn Grothman, Wisconsin
Harley Rouda, California             James Comer, Kentucky
Debbie Wasserman Schultz, Florida    Michael Cloud, Texas
John P. Sarbanes, Maryland           Bob Gibbs, Ohio
Peter Welch, Vermont                 Ralph Norman, South Carolina
Jackie Speier, California            Clay Higgins, Louisiana
Robin L. Kelly, Illinois             Chip Roy, Texas
Mark DeSaulnier, California          Carol D. Miller, West Virginia
Brenda L. Lawrence, Michigan         Mark E. Green, Tennessee
Stacey E. Plaskett, Virgin Islands   Kelly Armstrong, North Dakota
Ro Khanna, California                W. Gregory Steube, Florida
Jimmy Gomez, California              Frank Keller, Pennsylvania
Alexandria Ocasio-Cortez, New York
Ayanna Pressley, Massachusetts
Rashida Tlaib, Michigan

                     David Rapallo, Staff Director
              Richard Trumka, Subcommittee Staff Director
      William Cunningham, Chief Counsel and Senior Policy Advisor
                     Joshua Zucker, Assistant Clerk

               Christopher Hixon, Minority Staff Director

                      Contact Number: 202-225-5051
                                 ------                                

              Subcommittee on Economic and Consumer Policy

                Raja Krishnamoorthi, Illinois, Chairman
Mark DeSaulnier, California,         Michael Cloud, Texas, Ranking 
Ro Khanna, California                    Minority Member
Ayanna Pressley, Massachusetts       Glenn Grothman, Wisconsin
Rashida Tlaib, Michigan              James Comer, Kentucky
Gerald E. Connolly, Virginia         Chip Roy, Texas
                                     Carol D. Miller, West Virginia



                         C  O  N  T  E  N  T  S

                              ----------                              
                                                                   Page
Hearing held on December 10, 2019................................     1

                               Witnesses

Panel One

Mr. Alex Gorsky, Chief Executive Officer, Johnson & Johnson

Panel Two

Dr. William Longo, Scientist, Materials Analytical Services, LLC
    Oral Statement...............................................     6
Dr. Jacqueline Moline, Physician, Feinstein Institutes for 
  Medical Research at Northwell Health
    Oral Statement...............................................     8
Mr. David Etheridge, Patient
    Oral Statement...............................................     9
Dr. Professor Rod Metcalf, Geologist, University of Nevada-Las 
  Vegas
    Oral Statement...............................................    11

* The prepared statements for the above witnesses are available 
  at:  https://docs.house.gov.

                           INDEX OF DOCUMENTS

                              ----------                              

The documents listed below are available at: https://
  docs.house.gov.

  * ``Johnson & Johnson Was on Trial for the Opioid Crisis. 33 
  Lawmakers Took Its Money Anyway,'' article, Mother Jones; 
  submitted by Rep. Tlaib.

  * ``Michigan AG Nessel Announces State's $3.2 Million Share of 
  Multistate Settlement with Johnson & Johnson, Ethicon, Inc.,'' 
  press statement; submitted by Rep. Tlaib.


 
    EXAMINING CARCINOGENS IN TALC AND THE BEST METHODS FOR ASBESTOS 
                               DETECTION


                              ----------                              


                       Tuesday, December 10, 2019

                  House of Representatives,
                 Committee on Oversight and Reform,
              Subcommittee on Economic and Consumer Policy,
                                                   Washington, D.C.
    The subcommittee met, pursuant to notice, at 1:13 p.m., in 
room 2154, Rayburn House Office Building, Hon. Raja 
Krishnamoorthi (chairman of the subcommittee) presiding.
    Present: Representatives Krishamoorthi, DeSaulnier, 
Pressley, Tlaib, Maloney (ex officio), Grothman, Comer, Miller, 
and Jordan (ex officio).
    Mr. Krishnamoorthi. The subcommittee will come to order.
    Without objection, the chair is authorized to declare a 
recess of the committee at anytime. I now recognize myself for 
five minutes to give an opening statement.
    On October 18, 2019, FDA announced that its independent 
lab, AMA Analytics, detected asbestos in Johnson & Johnson's 
talc-based baby powder. In response to FDA's announcement on 
October 18, J&J issued a limited recall of one lot of its 
talcum powder.
    On November 15, 2019, I sent an invitation to Alex Gorsky, 
the CEO of Johnson & Johnson, requesting that he appear before 
our subcommittee to discuss the public health concerns 
regarding J&J's baby powder. I am disappointed that J&J has 
refused to comply with our request.
    While Mr. Gorsky has not refrained from making multiple 
public statements on this topic, including authoring written 
statements and speaking with media outlets, he has now avoided 
voluntarily testifying under oath before Congress. In fact, the 
subcommittee's very first hearing earlier this year examined 
possible carcinogens in talc-based products. Johnson & Johnson 
objected to the hearing, complaining that it had not been 
invited to participate. In a media release subsequent to our 
hearing, Johnson & Johnson stated, and I quote, the 
subcommittee did not hear the preponderance of evidence that 
supports the safety of our product.
    Before today's hearing, we gave Mr. Gorsky almost a full 
month's notice of the subcommittee's interest in his testimony. 
We wanted Mr. Gorsky to come forward with J&J's side of the 
story, but he declined. We can only speculate as to why I am 
currently speaking to an empty chair.
    But here are the facts. There is evidence that, for 
decades, tests have repeatedly found that Johnson & Johnson's 
talc-based baby powder contained asbestos. More sensitive 
testing methods than those used by Johnson & Johnson have 
detested asbestos in talc. In fact, in an internal Johnson & 
Johnson memo from 1975, employees discussing--discuss 
suppressing the use of sensitive asbestos-detection methods 
stating, and I quote, we want to avoid promotion of this 
approach. But Mr. Gorsky is not here to speak to that.
    There is evidence to suggest that when citizen petitions to 
the FDA in the late 1980's and early 1990's demanded that J&J 
label its powder with a cancer warning, the company pushed 
forward during that same time period with an aggressive 
marketing plan for communities of color as its sales to 
Caucasians declined. But Mr. Gorsky unfortunately is not here 
to speak to that either.
    We also have evidence that in 2008, Johnson & Johnson 
commissioned Research International, a market survey 
consultant, to conduct a consumer survey to determine public 
perceptions of its powder's name. The company learned then that 
women preferred the cornstarch-based powder over the talc-based 
powder and that women had a particular aversion to the words 
``talc'' and ``talcum,'' with one respondent even stating, 
quote, I don't like what that word brings to mind. Yet as you 
can see behind me, the company made an intentional decision to 
prominently feature cornstarch on the front of its cornstarch-
based bottle, while failing to do the same by labeling the word 
``talc'' on the front of its talc-based baby powder. 
Unfortunately, Mr. Gorsky is not here to speak to that.
    Yet Mr. Gorsky's company has chosen to speak out and push 
back against every instance over the last two months in which 
asbestos has been detected in samples of Johnson & Johnson's 
talc-based baby powder, including the FDA's own analysis.
    At this very moment, I am sending a document request to 
Johnson & Johnson seeking answers. We are asking the company to 
explain its decisions to disregard consumer preferences for 
cornstarch over talc, why the company continues to keep its 
talc powder on the U.S. market when countries like Canada are 
issuing findings to its citizens against the use of talc, and 
why the company refuses to attach an adequate carcinogen 
warning to the label of its talc-based baby powder, even as 
generic alternatives do so.
    This subcommittee will not rest until it has answers to 
these questions. It's what the American people and public 
health deserve.
    I now recognize our colleague, Mr. Comer of Kentucky, for 
five minutes for his opening statement.
    Mr. Comer. Well, thank you, Mr. Chairman. I want to thank 
all the witnesses that are here today to testify.
    The issue we're discussing today is extremely important. 
Any possible risk from widely used consumer products should be 
a concern for everyone. I'm confident that everyone in this 
room used some type of consumer products this morning, the 
safety of which we all take for granted. So I believe it's 
important that the committee hear from experts about possible 
talc contamination, the state of scientific understanding about 
the issue, and whether there are regulatory changes that should 
be considered with regard to the FDA and other agencies. 
However, there are several things regarding this hearing today 
that I'm uncomfortable with.
    First, I'd like to address the witness listed by the 
majority for today's hearing--the witnesses. Committee 
Democrats announced that there will be a second panel today 
featuring Johnson & Johnson CEO Alex Gorsky. However, since the 
majority was well aware in advance of today's hearing that 
Johnson & Johnson did not believe the CEO was the appropriate 
witness for the subject matter specified by the majority and 
that, therefore, he would not be appearing today, today's 
proceedings, as they relate to his testimony, appears to be for 
the benefit of the media and the audience.
    Upon receipt of the invitation to this hearing on November 
18 for the explicit purpose of examining, and I quote, methods 
used to detect asbestos in talc, the company has operated in 
good faith to provide an appropriate witness for this hearing. 
Mr. Gorsky's background is not in asbestos-detection methods 
and he does not have firsthand knowledge of such methods.
    Given the hearing topic identified by the committee 
majority, Johnson & Johnson offered a recognized expert on talc 
geology testing methods. When that witness was rejected, the 
company proposed that Kathleen Widmer, the chair of Johnson & 
Johnson's North American consumer division which oversees 
Johnson's baby powder, be allowed to appear. She's the highest-
level executive who is directly knowledgeable about the 
supposed topic of today's hearing. Committee Democrats again 
rejected Johnson & Johnson's proposal.
    Then in a supposed change of heart just a few days ago, the 
majority asked Ms. Widmer would--would be able to testify after 
all. Johnson & Johnson then refused to rearrange her schedule--
or Johnson & Johnson then rushed to rearrange her schedule so 
that she could appear as they had originally proposed. However, 
later that same day, committee Democrats again changed course 
and said that she was not acceptable after all, and they 
insisted on Mr. Gorsky, who the company has repeatedly and 
convincingly stated is not an appropriate witness for the topic 
of the committee--of this committee Democrats' choosing today, 
as if Democrats needed more theater on the day they announced 
their partisan impeachment.
    Mr. Chairman, Johnson & Johnson has, for the past years, 
shown a willingness to cooperate with the committee's 
investigation. It's provided briefings and it has produced 
documents requested by the majority. In fact, the company has 
produced nearly 10,000 pages of requested information and 
offered to provide an additional 300 pages. This offer of 
additional information was declined by the majority for 
unspecified reasons.
    I worry, Mr. Chairman, that the activities related to 
witness invitations and document production leading up to 
today's hearing may result in the perception that the 
committee's investigation is not about learning new facts about 
the potential harm of consumer products, but rather is about 
trying to publicly shame or embarrass a company and seek out 
``gotcha'' moments to aid in ongoing litigation, something this 
committee has been regularly doing over the past year.
    I worry too that the committee's actions raise questions 
about whether it's using its investigative tools to interfere 
with or give the appearance of interfering with ongoing 
litigation. More than 15,000 liability lawsuits have been filed 
against Johnson & Johnson over its talc-based products. This 
hearing is yet another example of the majority's actions, 
abiding by the trial bar, by holding hearings and requesting 
documents that are critical and otherwise difficult to obtain 
to plaintiffs' attorneys ability to litigate and file 
additional lawsuits. We've already seen evidence of this 
happening. One of the majority witnesses at its hearing on this 
topic earlier this year is now citing her testimony before 
Congress as part of her credentials during one of the ongoing 
lawsuits.
    I hope the subcommittee will commit to doing its best to 
refrain from interfering or appearing to interfere with ongoing 
litigation as we move forward.
    As I said at the beginning of my statement, the issue we 
are discussing here today is of the utmost importance. However, 
I hope we can approach the topic moving forward with a spirit 
of fairness and with an eye toward hearing from witnesses who 
can provide the best available science and not just those 
engaged in ongoing litigation.
    With that said, I thank our witnesses for appearing before 
our subcommittee today.
    Mr. Chairman, I yield back.
    Mr. Krishnamoorthi. Thank you very much, Mr. Comer.
    Congressman--Congresswoman Maloney is with us, the new 
chairwoman of our committee, and I now recognize her to say a 
few words and give her opening statement as well.
    Chairwoman Maloney. Thank you. Thank you so much, Mr. 
Chairman, for holding today's critical hearing. And thank you 
for your subcommittee's dedication to protecting public health.
    In October 2019, FDA announced that it detected asbestos in 
Johnson & Johnson's baby powder, leading the company to recall 
more than 30,000 bottles. Since then, Johnson & Johnson has 
publicly questioned the integrity of FDA's findings, casting 
doubt on the accuracy of the testing that was conducted.
    The American people need to have faith that the products, 
that they are safe; and that is part of FDA's critical role. If 
Johnson & Johnson claims there is some problem with FDA's 
methods or procedures, they need to explain those allegations 
in detail and provide the basis for their allegations.
    Unfortunately, as the chairman explained, the CEO of 
Johnson & Johnson, Alex Gorsky, has declined the subcommittee's 
invitation to testify here today. He has spoken to the press, 
issued public statements, and testified in litigation, but he 
apparently does not want to defend his company's actions here 
today. That is unfortunate and, frankly, unhelpful.
    I hope and encourage the subcommittee to continue its 
important work on behalf of the American people, and I pledge 
my support as they do so. Thank you, again, Mr. Chairman, for 
this important hearing.
    And I yield back.
    Mr. Krishnamoorthi. Thank you very much, Chairwoman 
Maloney.
    I would like to now recognize Ranking Member Jordan for an 
opening statement, if you wish.
    Mr. Jordan. Thank you, Mr. Chairman. I'm fine. Our ranking 
member, Mr. Comer, has said what needed to be said. Thank you.
    Mr. Krishnamoorthi. Really? This is the first time I have 
ever heard you say that. Thank you. Thank you, Mr. Jordan.
    Well, our first panel today should have had the opportunity 
to--should have been our opportunity to hear from Alex Gorsky, 
the CEO of Johnson & Johnson. Mr. Gorsky was aware of our 
interest back in March and said that our committee needed to 
hear their side of the story. We invited Mr. Gorsky to come 
before us one month ago, and yet Mr. Gorsky is not here.
    Mr. Gorsky can still make this right. He can respond 
quickly and thoroughly to our document requests, and he can 
come testify before us at a future hearing, because we will 
continue to examine this issue, because it is not going away. 
Too many people are demanding too many answers to important 
questions, and the safety of Johnson & Johnson's talcum-based 
cosmetic products is now in serious doubt. Too many people have 
come forward with evidence of being harmed by these products. 
Consequently, this issue is not going away, and this committee 
will press forward with its inquiry.
    With that, we will adjourn this panel and ask that the 
expert witnesses come forward to commence the next panel. Thank 
you.
    Mr. Krishnamoorthi. Thank you. We will now resume our 
proceedings.
    Today, we are joined by a panel of witnesses that will help 
us examine the best methods to detect asbestos in talc.
    Mr. David Etheridge, a Presbyterian pastor joining us from 
Norfolk, Virginia, will speak about his personal struggles to 
overcome mesothelioma, which he believes could have been 
prevented if more sensitive test methods were standardized to 
test for asbestos in talcum powder.
    Dr. William Longo is a lab scientist at Material Analytical 
Services, LLC, which has tested decades of samples of Johnson & 
Johnson's talc-based baby powder. He will share his disturbing 
findings with us, detecting asbestos in the majority of Johnson 
& Johnson's samples that he tested.
    Dr. Jacqueline Moline is the chairperson of the Department 
of Occupational Medicine, Epidemiology, and Prevention at the 
Donald and Barbara Zucker School of Medicine at Hofstra 
University. She is also the director of the Northwell Health 
Queens World Trade Center Health Program and the director of 
the New York state-funded Occupational and Environmental 
Medicine of Long Island clinical center. She will share her 
insights from a published case study of 33 patients with 
mesothelioma, male and female. She will speak about their 
exposures to talc-cased powders and what broader lessons we 
must understand for public health.
    Last, Dr. Rod Metcalf. He's a geologist from the University 
of Nevada, Las Vegas. Dr. Metcalf will help us understand the 
genesis of naturally occurring minerals often found in nature 
together, talc and asbestos, and the dangers both pose.
    If you would all please rise and raise your right hands, I 
will begin by swearing you in.
    Do you swear or affirm that the testimony you're about to 
give is the truth, the whole truth, and nothing but the truth, 
so help you God?
    Let the record show that the witnesses answered in the 
affirmative.
    Thank you, and please be seated.
    The microphones are sensitive, So please speak directly 
into them. Without objection, your written statements will be 
made part of the record.
    And with that, Dr. Longo, you are now recognized for five 
minutes.

STATEMENT OF DR. WILLIAM LONGO, SCIENTIST, MATERIALS ANALYTICAL 
                         SERVICES, LLC

    Mr. Longo. Thank you, Chairman.
    Mr. Krishnamoorthi. You have to press the button. Sorry.
    Let me just explain the lighting system here. Press the 
button to speak. Green means go. Yellow does not mean to stop; 
it means speed up. And then red obviously means please 
conclude. OK? So you have five minutes to speak. Thank you.
    Mr. Longo. Thank you, Chairman and ranking members and--
Ranking Member and esteemed members of this subcommittee for 
giving me the opportunity to discuss the best methods for 
determining asbestos in cosmetic talc.
    My name is William Longo. I have a Ph.D. in the area of 
material science and engineering. And I am the president of 
Materials Analytical Services, LLC, or simply MAS. I've been 
involved in asbestos analysis and research for over 30 years 
now. I have testified on behalf of both plaintiffs and 
defendants in asbestos cases.
    Independent labs throughout the country and over the course 
of several decades have documented the presence of asbestos in 
consumer talc products, including Johnson's baby powder. AMA 
Analytical, Forensic Analytical, MVA Scientific Consultants, 
our own lab MAS, and Johnson & Johnson's own consultants, 
Colorado School of Mines, Dartmouth University, McCrone 
Associates, Rutgers University, the RJ Lee Group and others 
have all documented asbestos in Johnson's and other 
manufacturers' talc products over the course of decades.
    The talc industry has, in that time, accumulated hundreds, 
if not thousands, of testing results that report no detectable 
or no quantifiable asbestos. These reports regarded by 
manufacturers as negative are very misleading, as they result 
from analytical mythological techniques with poor detection 
limits.
    The question I would like to address in my testimony today 
is why the testing methods adopted and used by the cosmetic 
talc industry have regularly failed to detect asbestos and what 
improved, through certainly not new, test methods can help 
ensure that we are doing our best to find asbestos in talc.
    The answer, in short, is straightforward and should not be 
controversial to anyone. The methods used in the past and today 
by the industry are not sensitive enough to detect trace levels 
of asbestos. We should have analytical methods that achieve the 
highest degrees of sensitivity and the lowest detection limits 
plausible. Let me explain.
    The first thing to understand is that asbestos fibers are 
very small and virtually weightless. They're measured in 
picograms or trillionths of a gram. Millions and millions of 
asbestos fibers can be present in a single gram of talc, even 
if the total asbestos by weight is less than 0.01 percent. So 
good analytical sensitivity is extremely important when looking 
at very small samples at very low weight percentages.
    Analytical sensitivity is simply how many asbestos fibers 
must be present in the talc sample for the analyst to see a 
single fiber.
    The laboratories used by the talc industry, and recently by 
FDA contract laboratory, have very poor analytical sensitivity, 
with detection limits of approximately 10 million to 14 million 
asbestos fibers per gram. That means that for the microscopist 
to detect a single asbestos fiber in the talcum powder sample, 
that needs to be between 10 million to 14 million asbestos 
fibers present per gram.
    So any analytical method for the detection of asbestos in 
talc must have good sensitivity, but good sensitivity does you 
no good if your sample preparation method doesn't allow you to 
see the asbestos in something that is 99 percent talc.
    It's been estimated that for every one asbestos fiber in 
cosmetic talc, there are 600,000 talc particles. These big 
plates of talc prevent the analyst from being able to see the 
asbestos, another reason for poor analytical sensitivity.
    This problem can be solved with a sample preparation method 
called heavy liquid separation, HLS. This technique can 
separate and remove substantial amount of the talc, leaving 
behind any amphibole asbestos that might be present, making it 
far easier and quicker analysis, along with substantially 
better sensitivity.
    As stated, the industry analytical sensitivity is between 
10 million to 14 million asbestos fibers per gram. Our 
laboratory, using the HLS sample preparation method for 
cosmetic talc and TEM samples, we have been able to increase 
that analytical sensitivity to approximately 4,500 asbestos 
fibers per gram. Using HLS, we have detected amphibole asbestos 
in approximately 65 percent of all the cosmetic samples we have 
analyzed in the last three years.
    The HLS method is not new to Johnson & Johnson or to the 
talc industry. In the early 1970's, both the Colorado School of 
Mines and Dartmouth University successfully developed an HLS 
method and presented it to J&J. The company never adopted the 
method, stating in the early 1970's memo that it may be too 
sensitive and not in their best worldwide interest to employ.
    Last, if the cosmetic powder manufacturers insist on 
continuing to use their talc in their cosmetic products, it is 
vital to the public safety that the most sensitive method must 
be required. At this time, there is no dispute that this is the 
HLS preparation method with analysis by TEM.
    An important caveat: Even using the best method, one can 
never state that cosmetic talc does not contain asbestos, only 
that the results fall below the detection limit. The only true 
solution to this problem is to ban the use of talcs in 
cosmetics products.
    Thank you, Representatives.
    Mr. Krishnamoorthi. Thank you, Dr. Longo.
    Next to Dr. Moline.

   STATEMENT OF DR. JACQUELINE MOLINE, PROFESSOR, FEINSTEIN 
      INSTITUTES FOR MEDICAL RESEARCH AT NORTHWELL HEALTH

    Dr. Moline. Good afternoon, Chairman Krishnamoorthi, 
Ranking Member Jordan, Mr. Comer, and members of the committee. 
I'm honored to be here today. My name is Dr. Jacqueline Moline. 
I'm a board certified physician at Northwell Health, 
specializing in occupational and environmental medicine which 
deals with the impact of exposures on the health of 
individuals, including asbestos.
    Asbestos has caused thousands of deaths in the United 
States. Legislation pending, the Alan Reinstein Ban Asbestos 
Now Act of 2019 is currently under consideration by Congress. 
It is time for us to ban this deadly substance.
    Asbestos fibers are microscopic. About 200,000 asbestos 
fibers could fit on Abraham Lincoln's nose on the penny. Once 
these fibers are breathed in, they can penetrate deeply in the 
lungs and move throughout the body.
    The most devastating disease from asbestos is mesothelioma, 
which is a cancer of the lining of the lungs or the abdomen. 
It's considered a signature disease, meaning its diagnosis 
almost always indicates asbestos exposure. As a result, 
treating doctors ask patients diagnosed with mesothelioma 
whether they were exposed to asbestos.
    For men, the evidence is often easy to identify. Many of my 
patients sought care because they knew they'd worked with 
asbestos. For women, sometimes it's easy to identify, because 
they lived with someone who worked with asbestos and they 
laundered their dusty clothes. Yet for many women and some men, 
they had no traditional source of asbestos exposure. As a 
result, their cancers were considered idiopathic or having no 
cause. There's no sound scientific reason for a gender 
discrepancy, apart from workplace exposures and could not be 
explained merely by chance.
    In my opinion, this conundrum has been solved. The presence 
of asbestos in cosmetic talc more commonly used by women is 
likely the cause of women's mesothelioma and men's 
mesothelioma. This talc exposure was their only exposure to 
asbestos. If doctors aren't aware that asbestos contaminated 
talcum powder, they don't ask about its use, nor consider it as 
a source.
    To my knowledge, there have been no studies that look at 
end users of cosmetic talcum powder, but to address this gap, I 
recently published an article in the Journal of Occupational 
and Environmental Medicine. My colleagues and I reported on 33 
individuals whose only source of asbestos exposure was the 
cosmetic talc. For six of the 33, we tested their tissue and 
found asbestos in talc. Years before, other scientists too had 
looked at lung burdens of women with mesothelioma, found the 
types of asbestos commonly found in talcum powder, and stated 
that the asbestos might be used--might be related to their use 
of contaminated talc.
    I'd like to tell you about Ms. D, who is a 66-year old 
woman who developed shortness of breath, chest wall pain, 
weight loss, and fatigue. A chest x-ray showed fluid 
surrounding her lung, and she had 1,600 milliliters of fluid, 
more than about seven of these water bottles on this table in 
front of me, removed from her lungs. She eventually had surgery 
to take tissue samples for diagnosis and had mesothelioma. She 
also had a pleural plaque, which is a hallmark finding of prior 
asbestos exposure. Unfortunately, despite aggressive treatment, 
she passed away two years after her diagnosis.
    She had worked in various industries, including textile and 
tobacco, and had no exposure to asbestos. However, she did have 
exposure to cosmetic talc in two settings. She worked part time 
as a hairdresser for 25 years, and she applied talcum powder to 
her customers' necks after she cut their hair. She used 
cosmetic talc on her body for 30 years, beginning with when her 
mother used talcum powder on her and she later used it on 
herself. She stated there would be a puff of smoke and it went 
everywhere. Now, asbestos can linger after that initial 
application and affect not only the health of the user, but 
also family members.
    In our study, the age of diagnosis was 27 to 88 years. The 
average number of years of cosmetic talc use was 32.7.
    Cosmetic talc use was not confined to one brand. There were 
22 different brands used. Like Ms. D., patients often used more 
than one type of cosmetic talcum powder.
    Fortunately, mesothelioma is a very rare tumor. Around 
3,000 new cases are diagnosed in the United States yearly. 
Unfortunately, it's not curable. Five-year survival for pleural 
mesothelioma is less than five percent. Peritoneal mesothelioma 
is somewhat better.
    In 2019, the Finnish Institute for Occupational Medicine 
stated that asbestos fibers of a thickness of three micrometers 
or less and a length of five micrometers or more cause a risk 
of cancer and pulmonary diseases when inhaled, regardless of 
whether they've been formed as a result of geological process 
metamorphosis or an industrial process such as in mining.
    What matters to me as a doctor is not the nomenclature. Any 
particle of asbestos that's small enough to be inhaled is three 
times longer than it's wide, can cause disease, including 
mesothelioma. Using terminology to somehow differentiate 
whether a particle is asbestiform or cleavage fragment 
obfuscates the issue and is just semantics. If it can be 
breathed into the lung, the body doesn't care how the fiber 
grew. From a clinical perspective it's really quite simple.
    Millions of individuals have been exposed to asbestos from 
contaminated talcum powder. There are safer alternatives on the 
market that don't contain talcum powder or asbestos. In my 
specialty, we strive to identify, treat, and prevent future 
illnesses related to exposures and hazards. If there's any 
possibility of the presence of asbestos, why should we take the 
chance?
    Thank you. I'd be happy to take questions.
    Mr. Krishnamoorthi. Thank you, Dr. Moline.
    Votes were called. We're just going to finish up the 
opening statements and then recess briefly.
    Mr. Etheridge, you have five minutes.

             STATEMENT OF DAVID ETHERIDGE, PATIENT

    Mr. Etheridge. Good afternoon, Chairman Krishnamoorthi and 
other members of the subcommittee. Apparently, quiet news days 
are hard to find around here lately, so I especially appreciate 
your presence today and your interest in this important topic.
    I'm David Etheridge. I'm a Virginian and, for most of my 
life, a Presbyterian pastor, husband, father of two, and more 
recently, a grandfather.
    At the age of 56, I was diagnosed with a rare and deadly 
type of cancer called peritoneal mesothelioma. Because the only 
known cause of mesothelioma is exposure to asbestos, my doctors 
and others quizzed me about my potential exposure. They asked 
about the places that I had worked and lived and school, where 
my family members worked, which dorms were my home during my 
stay at the College of William & Mary, trying to find some 
point of exposure to asbestos. They asked hundreds and hundreds 
of questions, but found no explanation.
    As it turns out, my mother was a liberal user of powder, 
and throughout her life, she used it on herself, and when I was 
an infant, she used talc-based Johnson & Johnson baby powder on 
me quite liberally. From the day she brought me home from the 
hospital until the age of three, she and my older sister 
covered me with baby powder every time that they changed my 
diaper.
    As an adult, trusting the product that had been used on me 
for so long, I used Johnson & Johnson baby powder on myself for 
a time, and my sister also used the powder on herself and now 
she has ovarian cancer, which makes you wonder, doesn't it?
    Since then, I've learned that whenever talc is mined from 
the ground, it has impurities that are mined along with it, 
including asbestos fibers. It was these fibers that got into my 
system and migrated to my peritoneal cavity, which caused a 
slow-growing tumor that debilitated me at the height of my 
career. Baby powder containing talc was the source of my 
asbestos exposure and the cause of the cancer that will kill 
me.
    Awaiting treatment, doctors withdrew six liters of fluid 
from my peritoneal cavity. This they did twice so that I could 
breathe until the surgery. And then I came here to the MedStar 
Washington Hospital Center where Dr. Paul Sugarbaker performed 
and 11-hour surgery on me, removing my spleen, my entire colon, 
the tail of my pancreas, and 6-1/2 pounds of cancer. He washed 
my insides with a strong solution of chemotherapy and then 
sewed me back together for a 20-day stay in the hospital.
    On my 57th birthday, they sent me home with a tube in my 
arm for the liquid food and antibiotics that would keep me 
alive for the next month, after which I endured 15 weeks of 
chemotherapy and rehabilitation and total exhaustion. I lost 50 
pounds.
    After six months away from the church that I served, I 
returned to work; but nine months later, more cancer was found, 
cancer that cannot be remedied or radiated or cured. So I 
resigned my position and I ended the service that I had felt 
called to since the age of 16, and I made my preparations to 
die.
    I understand that you all have friends who have cancer. I 
realize that 1,600 people die every single day from cancer, and 
I'm thankful that mesothelioma has not yet taken my life, but 
cancer was caused by a product that is used on the most 
vulnerable members of our society, infants. This is the cancer 
that will kill me. In fact, the people who apply these 
products, like my mother and sister, are completely unaware of 
the suffering that may occur or the death that may follow as a 
result of simply drying a baby's bottom.
    My case illustrates the sad truth that we cannot trust the 
talc industry to regulate itself in this matter. Since 1906, we 
have known that asbestos is deadly, and yet somehow it has 
shown up in baby powder yet again. We owe it to our Nation's 
children, parents, and every other consumer to ensure that our 
baby powder is truly safe and asbestos-free. Despite decades of 
promises to do so, the industry has not regulated itself. 
Therefore, you must.
    May God bless you in your work.
    Mr. Krishnamoorthi. Thank you, Mr. Etheridge.
    Dr. Metcalf, you have five minutes.

 STATEMENT OF ROD METCALF, PROFESSOR, GEOLOGIST, UNIVERSITY OF 
                       NEVADA, LAS VEGAS

    Mr. Metcalf. Chairman Krishnamoorthi, Ranking Member 
Jordan, and members of the subcommittee, thank you for inviting 
me today. My name is Dr. Rodney V. Metcalf. I hold bachelors, 
masters, and Ph.D. degrees in geology. I have served on the 
faculty of the Department of Geoscience at the University of 
Nevada, Las Vegas, for nearly 30 years. My current research 
focus is on understanding the geologic processes responsible 
for the formation of amphibole asbestos.
    I am here today to discuss the geological controls and 
processes that form talc and asbestos and the potential for 
talc and asbestos to coexist in talc ore and whether or not it 
is reasonable to expect talc ores to be free of asbestos 
minerals.
    When processes in scale are considered, the probability 
that talc and amphibole asbestos coexist in talc-rich rocks is 
very high. Talc and amphibole asbestos minerals can and 
certainly do coexist at scales that cannot be separated during 
mining of talc. Though not impossible, it is improbable for 
geologic processes to produce 100 percent pure talc in mineable 
volumes.
    Talc and asbestos are naturally occurring silicate 
minerals. Asbestos refers to six regulated fibrous minerals and 
include the serpentine mineral chrysotile and five fibrous 
amphibole minerals. While chrysotile is always fibrous, 
amphiboles occur in both fibrous and nonfibrous morphologies 
that leads to this issue of cleavage fragments which I'd be 
happy to discuss during the questioning.
    Talc and asbestos are formed by water-rock interaction 
during a type of metamorphism called hydrothermal alteration. 
During this process, a preexisting rock called a protolith, or 
a first rock, is subjected to changes in temperature, pressure, 
and the infiltration of hot waters. These changes drive 
reactions where minerals and a protolith break down to form new 
stable minerals. The water has the capacity to alter the bulk 
chemical composition of the protolith by the addition and the 
removal of dissolved components as fluids flow through the rock 
over time.
    When water-rock interaction produces significant shifts in 
protolith composition, the process is called metasomatism, and 
it's thought to be responsible for the production of talc-rich 
ores. Amphibole asbestos is formed by the same water-rock 
interactions that form talc.
    The two questions of particular interest here today are: 
One, are talc-producing reactions linked to the formation of 
amphibole asbestos? In other words, might we expect to find 
amphibole asbestos in talc? The answer to this is yes.
    Many talc-forming reactions involve the breakdown of 
amphibole under geologic conditions that are favorable for the 
generation of fibrous morphology, in other words, amphibole 
asbestos. For these reactions, incomplete reaction progress 
results in the retention of amphibole asbestos in talc-rich 
rocks. Talc-anthophyllite transition particles, which are well-
known in the literature in talc ore, are interpreted as relics 
of these incomplete reactions.
    The second question: Are there metamorphic processes 
capable of producing a rock of 100 percent pure talc, that is, 
a talc rock free of asbestos? The answer to this question is 
theoretically yes, but only under very specific conditions--
geologic conditions. Talc can be produced by reactions 
involving the breakdown of carbonate minerals, a reaction 
pathway that does not pass through amphibole asbestos, as long 
as the process operates in a specific range of temperature.
    Thus, metasomatism of carbonate protolith at a specific 
temperature could produce asbestos-free talc. However, if the 
process is started at a slightly higher temperature, amphibole 
asbestos can form. Talc containing amphibole asbestos is known 
from talc deposits formed by the alteration of these carbonate 
protolithologies.
    Asbestos in cosmetic talc is considered a health hazard to 
consumers even at levels labeled as non-detect by the industry 
J4-1 method. We should not be surprised when more sensitive 
testing methods find asbestos present in talc ores and talc 
products, given that the formation of asbestos and talc are 
likely--are linked by common geologic processes.
    Although we often refer to asbestos as a contaminant in 
talc, as though it were an introduced foreign substance, 
asbestos can occur as a relic component of the natural talc-
forming geologic processes, and its presence should be 
anticipated.
    Thank you for your time today. I'm available for questions.
    Mr. Krishnamoorthi. Thank you very much.
    The committee will now stand in recess, subject to the call 
of the chair. I ask members to please return promptly after the 
vote series.
    We'll be back shortly. Thank you.
    [Recess.]
    [2:45 p.m.]
    Mr. Krishnamoorthi. The subcommittee will come order.
    Thank you so much, and sorry for the pause in the 
proceedings. What we are going to do is start with questions, 
and I now recognize myself for five minutes of questions.
    Dr. Moline, is there any safe level of asbestos in consumer 
talc-based products?
    Dr. Moline. No.
    Mr. Krishnamoorthi. And why is that?
    Dr. Moline. There's no safe level of asbestos, period. It's 
a carcinogen. It's a type 1 carcinogen, and there should be no 
exposure.
    Mr. Krishnamoorthi. Dr. Longo, both the FDA and the EPA 
agree that there is no safe or acceptable level of asbestos for 
human exposure, correct?
    Mr. Longo. That is correct.
    Mr. Krishnamoorthi. In fact, just this past year, Johnson & 
Johnson's CEO, Alex Gorsky, was asked in a deposition whether 
asbestos is safe. He stated, quote: I would agree that asbestos 
is considered unsafe. I'm not an expert geologist or a safety 
expert in that particular area, but, generally speaking, we 
would say, yes, asbestos is not safe.
    On October 18, the FDA announced it had detected asbestos 
in J&J's talcum powder. Dr. Moline, what is the significance of 
this announcement?
    Dr. Moline. That, to this day, they're finding asbestos 
when they go off the shelf in talcum powder, and it's putting 
thousands, if not millions, of people at risk in the future.
    Mr. Krishnamoorthi. Dr. Longo?
    Mr. Longo. That is correct. And those results verify our 
results of finding amphibole asbestos in the Johnson & 
Johnson's product from the Chinese mine, which is the mine 
that's being used today.
    Mr. Krishnamoorthi. Dr. Longo, it's important that we have 
sensitive testing methods to detect any level of asbestos in 
consumer products, right?
    Mr. Longo. Yes, sir. That's correct.
    Mr. Krishnamoorthi. And you personally tested historical 
samples of J&J's talcum powder, correct?
    Mr. Longo. Yes, our laboratory has.
    Mr. Krishnamoorthi. And from what decades did you test this 
powder?
    Mr. Longo. We have analyzed samples from the forties all 
the way up to the 2000's, as well as the--as well as the 
current Johnson & Johnson products.
    Mr. Krishnamoorthi. And what did you find?
    Mr. Longo. Overall, 65 percent of all the samples we've 
tested were positive for regulated asbestos.
    Mr. Krishnamoorthi. Did you use the same asbestos detection 
methods as J&J?
    Mr. Longo. No, sir, we did not.
    Mr. Krishnamoorthi. And how did they differ?
    Mr. Longo. We used what is called a heavy liquid separation 
technique, which makes the analysis a lot more sensitive.
    Mr. Krishnamoorthi. And do you believe that sensitivity is 
essential to detecting asbestos in talc?
    Mr. Longo. Absolutely.
    Mr. Krishnamoorthi. Now, has Johnson & Johnson ever 
acknowledged any asbestos detection tests that have concluded 
that the company's samples contain asbestos?
    Mr. Longo. Not that I'm aware of.
    Mr. Krishnamoorthi. So just so I understand, you've tested 
historical samples from the forties through today----
    Mr. Longo. Correct.
    Mr. Krishnamoorthi [continuing]. using this HLS method of 
detection, and in those tests, you've determined 65 percent of 
those samples contain asbestos; but on the other hand, Johnson 
& Johnson has never acknowledged that any of their samples 
contain asbestos. How could that be?
    Mr. Longo. Not currently they haven't. Certainly, their--
some of their testing have consultants in the past. They don't 
acknowledge it. They say that what we are testing is really not 
asbestos, and now it comes down to the argument of what's the 
gee--excuse me--the geometry of the fibers versus what they 
call cleavage fragments?
    Mr. Krishnamoorthi. Okay. And why does that matter?
    Mr. Longo. Well, on our side, it doesn't matter, because 
we're following absolute regulated protocols to identify 
asbestos recognized by EPA, OSHA, the ASTM, as well as the 
International Standards Organization. It's a defining on what 
the definition is. It's misleading at best.
    Mr. Krishnamoorthi. Okay. Now, as you know, on October 18, 
FDA announced its contract lab found asbestos in J&J's talcum 
powder. Did FDA's contract lab, this is the AMA firm, did they 
use the HLS method?
    Mr. Longo. They did not.
    Mr. Krishnamoorthi. What kind of method did they use, do 
you know?
    Mr. Longo. I would call it the standard method where you 
have to find a needle in a haystack, and every now and then, 
you'll find that needle, but it's rare. And they've had a rare 
event, in my opinion, that they found the needle in this 
particular bottle.
    Mr. Krishnamoorthi. So what would have happened had they 
used the HLS method of detection, which is a much more 
sensitive method?
    Mr. Longo. If they had used that method as in its current 
state, they would not have found the chrysotile asbestos, but 
they could have found the amphibole asbestos, which is what 
that method is really designed for.
    Mr. Krishnamoorthi. And, again, tell us, what is the 
significance of finding one type of asbestos versus the other?
    Mr. Longo. No significance, because they're both regulated. 
The significance is, is that current products are being sold 
with trace amounts of asbestos in it.
    Mr. Krishnamoorthi. Just so I understand, either one would 
be carcinogenic?
    Mr. Longo. That's not my area, but I think Dr. Moline would 
tell you that either one is carcinogenic.
    Mr. Krishnamoorthi. Dr. Moline, do you want to tell us if 
either one is carcinogenic?
    Dr. Moline. All of the forms of asbestos are carcinogenic.
    Mr. Krishnamoorthi. Thank you.
    Let me now recognize Congresswoman Miller for five minutes 
of questions.
    Mrs. Miller. Thank you, Chairman Krishnamoorthi.
    The Oversight Committee has long played an important part 
of overseeing the role government plays in protecting the 
public. Congress has mandated the Food and Drug Administration 
be the responsible one for regulating certain products, 
including consumer cosmetics that use talc. While the committee 
has the jurisdiction to complete this oversight on the 
possibility of asbestos in talc, today's hearing does nothing 
to accomplish that goal.
    Johnson & Johnson has provided over 10,000 pages of 
material to the committee on their asbestos testing methods and 
have offered to provide over 300,000 more. My colleagues on the 
other side of the aisle declined to receive them. Johnson & 
Johnson has also offered to have its own experts in asbestos 
testing appear in front of this committee to provide real 
documentation and evidence and, again, has been unfortunately 
denied.
    This hearing does not help consumers, and it is neither the 
right forum nor the fair process needed to have this important 
conversation. It is inappropriate for this committee to attempt 
to influence ongoing litigation. Today's hearing is not the 
role of this committee, and I look forward to the opportunity 
to perform the oversight duties that the American people 
elected us to do in order to keep us safe.
    Dr. Longo.
    Mr. Longo. Yes, ma'am.
    Mrs. Miller. Is it true in the early 2000's you testified 
under oath that talc containing asbestos was an urban legend?
    Mr. Longo. Yes, ma'am. Oh, sorry. Yes, ma'am, I did.
    Mrs. Miller. What has changed since then?
    Mr. Longo. What has changed since then is we've been using 
a much more sensitive method, and that was at the time that we 
did not receive or had the opportunity to look at thousands and 
thousands of Johnson & Johnson confidential documents showing 
that their own testing of their own products in their own mines 
had regulated asbestos in it, and we were not using the most 
sensitive techniques. And since that time, in three years, we 
have analyzed over 109 Johnson & Johnson bottles and found 65 
percent of them positive for regulated asbestos using heavy 
liquid density separation and many other cosmetic talc 
companies.
    Mrs. Miller. How long has that testing been available?
    Mr. Longo. It was initially been available since, for 
Johnson & Johnson, when their consultants, in 1973 and 1974, 
developed a heavy liquid density separation method for 
amphibole asbestos and presented it to Johnson & Johnson.
    Mrs. Miller. But in 2001, when you were asked if you were 
familiar with the asbestos content of cosmetics, you said: In 
my field I have. It's sort of like an urban legend about the 
talcs in cosmetics containing tremolite. I've never been able 
to verify that.
    Mr. Longo. Yes, ma'am, I did say that back in 2001. And, 
again, that's before we received all the confidential documents 
from Johnson & Johnson showing that they had a heavy liquid 
density method separation process that was presented to them in 
1973 and 1974, and Johnson----
    Mrs. Miller. Have you ever visited a talc mine that 
supplies Johnson & Johnson product?
    Mr. Longo. No, ma'am, I haven't.
    Mrs. Miller. Has your lab ever tested a Johnson & Johnson 
product that has been confirmed positive for asbestos?
    Mr. Longo. Yes. We have tested many Johnson & Johnson 
products that we have confirmed positive for asbestos, as well 
as other laboratories.
    Mrs. Miller. Dr. Moline, in your written testimony, you 
cite a study by Dr. Victor Roggli, but Dr. Roggli says that 
cosmetic talc does not cause cancer. Is that correct?
    Dr. Moline. I'm not sure what study you're referring to. 
The study I was referring to was from early work he did where 
he analyzed the lung tissue of women with mesothelioma and----
    Mrs. Miller. This was 2019. Specifically, in August 2019, 
Dr. Roggli stated that he and his fellow researchers identify 
no evidence of any causative role of cosmetic talc in malignant 
mesothelioma--oma.
    Dr. Moline. I think that doctors may disagree on that, and 
I think the weight of the evidence is to the contrary, but he's 
entitled to his opinion.
    Mrs. Miller. Thank you.
    I yield back my time.
    Mr. Krishnamoorthi. Thank you, Congresswoman Miller.
    Now, Congresswoman Pressley, you have five minutes.
    Ms. Pressley. Thank you, Mr. Chairman, for holding this 
important hearing today.
    And, respectfully, I disagree with my colleague across the 
aisle. I think this is the very exact vehicle and forum where 
this sort of oversight is supposed to take place. This is the 
committee where we pursue truth and justice for the American 
people, and there has been a great injustice done to many, and 
so I'm grateful for the hearing today.
    I find it insulting to this committee and to the men and 
women across this country whose trust in Johnson & Johnson has 
destroyed their lives or the lives of their loved ones. Today, 
we have heard brave testimony from people like Pastor 
Etheridge.
    And let me say what Mr. Gorsky wouldn't. I'm sorry. Sorry 
for the pain you have endured, because you put your trust in a 
company that placed profits over your very life and safety.
    When Johnson & Johnson asks people to trust them, the FDA 
should have said, show us. Show us that your products aren't 
hazardous. And when they refused to do this, when research 
showed that asbestos was showing up in their talc and baby 
powder, rather than inform the public through warning labels, 
Johnson & Johnson tried to discredit it. They looked for ways 
to sell more of it, and they set their sights on Black and 
Hispanic women.
    Mr. Gorsky, I hope you are watching today, because we still 
want answers. And that's exactly why Representative Schakowsky 
of Illinois and I earlier submitted a letter that we plan--
submitted a letter so that we can continue to get to the bottom 
of this and to demand answers and accountability for those who 
have been harmed by Johnson & Johnson because of their 
company's greed, and they deserve to be held accountable.
    Pastor Etheridge, I know you had to step away from the 
pulpit, but I could argue as a woman of faith that your 
ministry continues as evidenced by your testimony here today.
    Could you share with us, what were your initial symptoms?
    Mr. Etheridge. My initial systems were unexplained weight 
loss. I never lost weight by accident in my entire life. I had 
fever, shortness of breath, and fatigue.
    Ms. Pressley. And so--and was there--was there any other 
context around this? Were you going on a trip or something or--
--
    Mr. Etheridge. We were on vacation in Hawaii----
    Ms. Pressley. Okay.
    Mr. Etheridge [continuing]. and had some--I was taking 
antibiotics and my symptoms, instead of getting better, were 
getting worse, and so we went to an ER and I was diagnosed with 
cancer at that time. It was later determined, upon my return 
home, that it was mesothelioma.
    Ms. Pressley. Thank you.
    I have some more questions and, due to the interest of 
time, if you'll please try to answer them as succinctly as 
possible, preferably with a yes or no answer.
    Did you consult additional doctors when you returned from 
vacation?
    Mr. Etheridge. Yes.
    Ms. Pressley. Did your doctor discuss with you the causes 
of mesothelioma?
    Mr. Etheridge. Yes.
    Ms. Pressley. Have you ever been exposed to asbestos in 
your profession as a pastor?
    Mr. Etheridge. No.
    Ms. Pressley. How long have you been a pastor?
    Mr. Etheridge. I was a pastor for 33 years.
    Ms. Pressley. How often in adulthood would you use Johnson 
& Johnson's talcum baby powder and for what purpose?
    Mr. Etheridge. Maybe two or three times a week to powder my 
genitals after I showered.
    Ms. Pressley. Common.
    Again, I'm so sorry for the pain you have endured. As a 
lawmaker, I know the power of having those closest to the pain 
driving our policy solutions, as well as the general 
accountability, given the jurisdiction or reach of this 
committee.
    So just for the record, and you spoke to this in your 
earlier testimony, but I think it bears repeating, Pastor 
Etheridge, do you believe Johnson & Johnson's talc-based baby 
powder caused your mesothelioma?
    Mr. Etheridge. Yes, I'm convinced of that.
    Ms. Pressley. And if you had the opportunity to make policy 
changes to prevent other people from using products that cause 
mesothelioma, what would you do?
    Mr. Etheridge. At the very least, we should regulate the 
use of talc or add warning labels to the products, but, 
ideally, we need to get this stuff off the shelves.
    Ms. Pressley. All right. Well, we'll certainly do 
everything we can to ensure justice for you and your family. 
God bless you.
    Mr. Etheridge. Thank you.
    Ms. Pressley. Thank you. And I yield.
    Mr. Krishnamoorthi. I thank you Congresswoman. I'm going to 
use the remainder of your time for a couple of questions here.
    Dr. Longo, when was the first known reporting of asbestos 
in J&J's talcum powder made public?
    Mr. Longo. The first reporting, I guess--I keep forgetting 
it.
    The first reporting I think was only recently public.
    Mr. Krishnamoorthi. And was that positive asbestos finding 
conducted by an independent lab?
    Mr. Longo. Yes, sir, it was.
    Mr. Krishnamoorthi. And let me ask you this. In response to 
a couple of questions that you were asked, I think that they 
mentioned that earlier in 2001, you had indicated that you 
weren't aware of asbestos in talc powder. But then after 
reviewing documentary evidence, as well as conducting 
additional tests, you then learned of the presence of asbestos 
in talc powder.
    Do you want to say anything more about that?
    Mr. Longo. Yes. It was early on and, as scientists, we keep 
our minds open. And then the--there was a published paper in 
2014/2015, and then I became interested in it. And then finally 
in 2016, decided to go ahead, but had to look for a more 
sensitive method, and that's where the L--the liquid heavy 
density separation method came in.
    Mr. Krishnamoorthi. Thank you, Dr. Longo.
    Now I will recognize Mr. Grothman for five minutes.
    Mr. Grothman. Thank you. This is a very interesting 
committee on oversight. You never know what you're going get. A 
different topic every day.
    I'm a little bit disappointed here, and I'll say this 
because, of course, people back home are watching, this being 
filmed and we have four people testifying today.
    As I understand it--and, of course, you know, we sometimes 
meet with people in our offices prior to these hearings--
Johnson & Johnson had an expert they wanted to have testify. I 
understand majority party wanted Mr. Gorsky, I think was his 
name, the CEO, to testify, but not surprising, Johnson & 
Johnson wanted an expert. And I see we have three doctors 
testifying today. They wanted their own expert to be able to 
testify. It was the two sides to every story. I think their 
expert was a woman by the name of Kathy Widmer. And for 
whatever motivation, Kathy is not here today. She was not 
allowed to testify.
    And I think it's disappointing, because I came here open-
minded. I wanted to hear both sides of the story. I assume 
there's both sides to the story. As I understand it, there are 
four or five times in which an appellate court has ruled on 
this situation, and all four or five times, they've ruled in 
favor of Johnson & Johnson.
    Now, I'm as jaded about courts as anybody, but I assume 
that when people have--when judges have time to review briefs, 
maybe read hundreds of pages on this topic, and they decide 
against the plaintiffs, there's something there. There's a 
story that I should be able to hear. And I resent a little bit 
of the fact that I'm not able to hear that story.
    I don't think it's out of line for Johnson & Johnson to say 
we don't want our CEO to testify. We have three doctors 
testifying, and we want our own doctor, but we didn't hear 
their own doctor.
    And I'll just say one more time that that's disappointing.
    Mr. Grothman. And in case anybody is paying attention to 
this hearing--paying attention to this hearing at home, for our 
home viewing audience, that they are aware that we're getting 
one side of the story today. I'll plunge ahead with that one 
side and see what I can hear from these folks.
    As I understand it, four or times on appeal, judges decided 
that plaintiffs did not have a strong enough case or ruled 
against plaintiffs. I have other questions too, but I'll ask--
because we don't have the people on Johnson & Johnson's side 
here, could I ask, say, Dr. Longo, why on appeal does Johnson & 
Johnson seem to keep winning these cases?
    Mr. Longo. And, again, my understanding is the appeal had 
to do with jurisdiction issues, not anything to do with the 
science, and that's just my understanding.
    Mr. Grothman. Okay. And they sometimes won before juries as 
well. Again, juries don't always get it right, but they're 
juries who listen to all of the evidence, not just, you know, 
five-minute questions from Congressmen, and they are sometimes 
deciding that Johnson & Johnson has not done anything wrong in 
these cases.
    Dr. Longo--and I hope this isn't true, but, you know, we're 
provided some stuff in advance here. You own a company, MAS, or 
have a 75 percent in MAS. Is that true?
    Mr. Longo. Yes, sir, I do.
    Mr. Grothman. Okay. And MAS makes money testifying or 
providing evidence before trials of this nature?
    Mr. Longo. Yes, sir. We do provide experts the bill for 
their time.
    Mr. Grothman. Yes. Could I find out how much on these 
cases, how much you've billed out total to--to claim that 
Johnson & Johnson is negligent in these cases?
    Mr. Longo. I believe MAS has billed for all its research 
and development and--and sample analysis and----
    Mr. Grothman. A hundred thousand? A million? Ten million? 
Thirty million? I mean, there are all sorts of numbers around 
out there. How much have you guys about billed out on this--on 
this matter?
    Mr. Longo. I would estimate in the two years--2017, 2018 
and 2019, I would estimate somewhere a million, a million-
point-2.
    Mr. Grothman. Okay. That's----
    Mr. Longo. I think. That's an estimate.
    Mr. Grothman [continuing]. total of--now, somebody gave me 
something. Maybe they're lying. They're saying total MAS may 
have billed out as much as 30 million, but you're saying it's 
only 1 or 2 million?
    Mr. Longo. Well, that's two different questions. MAS 
started in 1988, and for 31 years, we've probably--we have--we 
have averaged a million dollars in litigation. But you have to 
understand, we're a 20,000-square-foot laboratory, we have 43--
--
    Mr. Grothman. I understand you have got expenses. You--when 
people tell me that you might have billed out 30 million to 
take a side on this matter, are they lying to me, or is it 
about 30 million?
    Mr. Longo. I won't call somebody a liar, but that's just 
not true. If I had billed personally $30 million----
    Mr. Grothman. Not personally. The company.
    Mr. Longo. If the company had billed--the company has not 
billed $30 million involved in Johnson & Johnson----
    Mr. Grothman. Twenty million?
    Mr. Longo. No. I would say in the three years for the 
Johnson & Johnson litigation----
    Mr. Grothman. Total.
    Mr. Longo [continuing]. maybe 1.5 million.
    Mr. Grothman. Okay. Thank you much.
    I hope some day we do have a chance to hear from Ms. 
Widmer.
    Mr. Krishnamoorthi. Well, thank you.
    And the minority always has the option to provide a 
witness. They declined to do so today. Nobody.
    Now we're going to call on Congresswoman Tlaib for five 
minutes.
    Ms. Tlaib. Thank you so much, Chairman. I do sincerely 
appreciate you using this committee to kind of elevate the 
voices of people like the pastor here and others that have been 
impacted.
    I think it's really hard for me to sometimes sit here and 
hear folks, you know, kind of be the--the defendant lawyers for 
the corporations. I mean, how much money, millions and billions 
of dollars, did Johnson & Johnson make in poisoning people? I 
mean, literally why aren't we asking that question?
    Because I--you can't get away from the facts. FDA found 
asbestos in baby powder. Now remember, it's baby powder; it's 
not even--it's baby powder. Not only that, they later on--
furthermore, reports state that the asbestos was detected in 
one of the tests Johnson & Johnson itself conducted using 
sample from the same bottle as the FDA, okay? Fact. Okay? FDA 
is coming to us saying this, okay? Are we going to say, oh, is 
FDA getting paid? No. These are--these are folks that are 
coming in trying to protect the public. That is our job. That 
is our job, to protect the public.
    Reports show that Johnson & Johnson contracted with RJ Lee 
Labs. RJ Lee reportedly deviated from its standard testing 
procedures in order to deliver rushed results at the request of 
the company. Check this out. An RJ Lee scientist stated that 
Johnson & Johnson wanted, quote, very rapid turnaround for 
obvious reasons. Then the lab found asbestos in its sample, but 
later retracted its results and claimed that initial false 
detection was due to environmental contaminants in one of its 
testing rooms.
    Johnson & Johnson discredited its own company that they 
hired and contracted out. They discredited RJ Lee's initial 
finding, blaming the asbestos detection on all kinds of stuff 
that is, you know, what we say in Detroit, BS.
    Dr. Longo, have you evaluated this particular RJ Lee 
testing report?
    Mr. Longo. Yes, I have.
    Ms. Tlaib. Yes. I mean, do you see what's the problem here? 
I mean, they found asbestos, correct?
    Mr. Longo. They detected asbestos in the actual talc 
samples, and then their controls are blanks. When they were 
analyzed, they did not detect asbestos.
    Ms. Tlaib. And samples of a bottle of Johnson & Johnson 
baby powder have tested positive in two separate labs, correct?
    Mr. Longo. I know--yes, in the AMA lab as well as the RJ 
Lee lab.
    Ms. Tlaib. And Johnson & Johnson proceeds to accuse both 
labs of being contaminated with asbestos.
    Mr. Longo. I know.
    Ms. Tlaib. Dr. Longo, I mean, wow. Like, I am just--you 
know, I've only been here a year, but I'm just so taken aback 
that my colleagues don't even see it. I can't even make this 
stuff up. This is factual. I can't even make it up.
    These FDA folks, they're not Republicans or Democrats. 
They're government officials that are doing their jobs, right, 
Pastor? I mean, that's what they're supposed to be doing. 
They're public servants. They're doing exactly what they were 
hired to do, which is protect the public. And I am just taken 
aback that my colleagues who represent--each of us represent 
close to 700,000 people back home, that doesn't expect us to be 
defendant lawyers for Johnson & Johnson who basically poison 
people. They expect us to defend them, to protect them. And we 
have to be--realize, like how much money did they make off of 
the human suffering of people?
    My God, Pastor, 33 years, pastoring people. You know, I 
hope this is--like, this for you is--you are continuing your 
work for the people by--by talking about this in a very 
profound way through your own personal experience.
    But I am just--you know, Chairman, I cannot stress enough 
just how important it is that this committee is used for good.
    And that's exactly what we're doing. We're sharing exactly 
what is happening to people because of this. And they want to 
come up with these kinds of little conspiracy theories and all 
this other stuff. The fact of the matter is FDA found asbestos 
in the testing. Two companies that Johnson & Johnson hired 
found asbestos. How much more testing do our people need? How 
much more? Enough is enough.
    And so I just urge my colleagues to support the chairman as 
he proceeds to find the truth. And I'll tell you, I've been 
here--they have every opportunity to bring their own witness 
forward. I actually went and asked staff who is their witness. 
They said they don't have one. They had every opportunity, the 
Republicans, to actually put somebody up here to talk about 
this.
    So I obviously am very passionate about this. I can just 
tell you, you know, from my district of folks--I have the third 
poorest congressional district in the country. Very strong, 
resilient people. They are the people that got targeted by 
Johnson & Johnson. They're the ones that they thought was 
disposable for profits. So I'm not going to keep my mouth shut 
or try to say, well, this ain't fair. No, if the FDA found 
asbestos, shouldn't that be enough?
    Thank you, Chairman.
    Mr. Krishnamoorthi. Thank you, Congresswoman Tlaib.
    We're just going to go to a second round of questions and 
then finish up here.
    It is true the minority did not call a single witness, 
whether it was from Johnson & Johnson or anybody. So they had 
the opportunity and they declined. And, of course, as we know, 
the CEO has opined on this issue multiple times. He'll go to 
the media, he'll go in other forums and talk about this, but he 
doesn't want to talk about it in Congress. And that's a 
problem.
    Now, let me just ask a couple more questions here.
    Mr. Etheridge, at the time that you had used Johnson & 
Johnson's baby powder, did you have any inkling whatsoever 
about this presence of asbestos in its powder?
    Mr. Etheridge. There was no reason for me to suspect this 
hazard. They're known as the baby company.
    Mr. Krishnamoorthi. In fact, they advertise the powder in a 
way that makes it seem like it's as pure as any--any material 
out there, and obviously that's why moms and families apply it 
to babies, right?
    Mr. Etheridge. I used it on my own children.
    Mr. Krishnamoorthi. Sure. And I think that--I hear some of 
my colleagues saying the same thing. And I think generations of 
families have used it, around the world.
    Dr. Longo, you know, I wanted to ask you a little more 
about your testimony with regard to your own practice. I think 
the other side wants to make a big deal out of your prior 
testimony. Would you like to comment on I think their 
suggestion that somehow your testimony is really motivated by 
money as opposed to what you've discovered in your scientific 
testing?
    Mr. Longo. No, our practice is not motivated by money. We 
do participate in litigation, but our company testifies for 
both plaintiffs and defendants over the last 30 years.
    We have to charge for our time. We have to pay for the 
electron microscopes. We have to pay for the optical 
microscopes. We have to pay the rent. I'm not sure a lot of 
these folks understand what it takes to run a small business.
    We go with every type of analysis we do with the utmost 
integrity. I had no idea back in the day that cosmetic talcs 
would have this kind of asbestos levels in them. It wasn't 
until I got interested in it and realized that it was the 
detection limits that was the problem, that the trace amounts 
of asbestos in the detection limits was causing every--all the 
labs that were analyzing it at the time to think there was 
nothing there.
    Using the best detection method, we're now seeing that 
these accessory minerals--tremolite, actinolite, and 
anthophyllite--are there. And you can't predict when you'll 
find it or not. It's almost ubiquitous. The only way to get rid 
of the problem and to assure, in my opinion, that there is no 
more exposures to this, is to eliminate talc from these 
cosmetic products.
    Mr. Krishnamoorthi. Okay. Dr. Moline, it's pretty clear 
that mesothelioma can only be caused by one material, and that 
is asbestos, correct?
    Dr. Moline. That's basically true. There's some evidence 
that folks who have undergone therapeutic radiation may be at 
increased risk. There's no studies that look at the combination 
of those two. There are some folks that have had both and is at 
an increased risk.
    In terms of outside products, in the United States, 
asbestos is the only product that we're aware of that causes 
mesothelioma, although there is some question of some other 
minerals like taconite that's found in Minnesota.
    Mr. Krishnamoorthi. I see.
    Dr. Moline. But it's about 99 percent or more.
    Mr. Krishnamoorthi. Okay. And, Dr. Metcalf, I think that 
you talked about the mineral mining, and I think maybe some of 
my colleagues will talk about this a little bit further. But 
talc and asbestos are naturally occurring together, correct?
    Mr. Metcalf. That's correct.
    Mr. Krishnamoorthi. It's like you can't mine talc without 
mining asbestos in the same process?
    Mr. Metcalf. Well, I did outline a very narrow set of 
conditions where talc might be produced without--at least 
amphibole is what I actually--without asbestos. But for most of 
the geologic settings where talc forms, we very much expect to 
find asbestos minerals with it, because it is--it is the 
amphibole minerals that are breaking down to form talc.
    Mr. Krishnamoorthi. I see. And in this particular----
    Mr. Metcalf. And let me add that these processes are taking 
place at--almost at the atomic scale that these minerals are 
growing, but we are mining this stuff with drills and front-end 
loaders and blasting and dump trucks. And so to be able to 
assure, the way Dr. Longo does, that the material we're mining 
is free of this, we need to test lots of it, because there's 
lots of heterogeneities too. We may test one sample and it may 
be pure talc; we may test another sample and it could be--have 
asbestos in it. And so it's the heterogeneities that make this 
a real problem.
    Mr. Krishnamoorthi. Very good.
    Now I'll recognize Congresswoman Pressley for five minutes.
    Ms. Pressley. Thank you, Mr. Chairman.
    I want to say I associate myself with the impassioned 
Detroit tell-it-like-it-is comments of Representative Tlaib a 
moment ago, and completely dissociate myself with the comments 
offered by my colleague across the aisle. I find that I have 
that dual experience often on this committee of comparable 
pride of our honoring the words of our late chairman in being 
in efficient and effective pursuit of the truth and 
simultaneous shame with all of the efforts to obstruct the work 
of this committee to get to the truth.
    But since there was a desire expressed earlier to center 
the science, I'd like to ask some line of questioning in line 
with that.
    It is reported that Johnson & Johnson's talc tested 
positive for asbestos as far back as 1957 and 1958. Yet on more 
than one occasion, labs have tested samples from the same 
bottle of Johnson & Johnson's talc-based powder and come to 
different conclusions.
    As Representative Tlaib mentioned in her impassioned 
testimony or statement, Johnson & Johnson commissioned its own 
studies with samples from the same bottle and predictably 
announced their samples tested negative for asbestos. Notably, 
Johnson & Johnson's own commissioned lab also detected asbestos 
in one of the company's samples, yet later attributed the false 
positive to environmental contaminants of an air-conditioning 
unit.
    Dr. Longo, how are divergent detection results possible 
when two samples from the same bottle are tested for asbestos?
    Mr. Longo. If you have trace levels and you are using an 
unsensitive method, you can have where one sample will be 
detected and then another aliquot you may not see that. So it's 
very hard to say, especially if you have a laboratory that did 
detect it, then didn't detect it. So you can't really compare 
apples to apples here.
    Ms. Pressley. Mr. Metcalf, geologically, how closely 
related are talc and asbestos?
    Mr. Metcalf. Very closely related. As I said, many of the 
reactions that form talc, the metamorphic reactions that form 
talc, are breaking down amphibole--an amphibole under the kinds 
of conditions that make them fibrous.
    And I'll say, I actually came to this, not--to look at talc 
not because I was interested in talc, but because I was 
interested in understanding why amphiboles, which are sometimes 
fibrous and sometimes are not fibrous, why are they fibrous, 
what controls it. And as I started to do literature review--and 
there's a lot of papers published in the seventies and eighties 
and then in the early nineties that looked at this with high-
resolution transmission electron microscopes. And I kept 
running into textures and understanding that we went from 
nonfibrous to fibrous amphibole to talc, and it was a reaction 
sequence that ended in talc.
    And that's what really got me interested. And I really 
wasn't paying attention to the talc stories and any of the 
stuff until I kept running into this in the literature. And so, 
yes, asbestos and talc are linked by geologic processes.
    Ms. Pressley. And so talc and asbestos evolve from the same 
protolith?
    Mr. Metcalf. Yes, that's correct.
    Ms. Pressley. Okay. And so what environmental processes 
caused the protolith to evolve into asbestos and talc?
    Mr. Metcalf. So the process that's involved in this most of 
the time, as I talked about, is something called hydrothermal 
alteration. It's a type of metamorphism when a preexisting 
rock, the protolith, is subjected to differing conditions of 
pressure and temperature, and particularly fluid flow. So over 
the course of the metamorphism, fluids are passing through the 
rock, and it's the reaction of those fluids with the protolith 
that drives these processes. All these minerals are hydrous 
minerals.
    Ms. Pressley. So during the rock evolution, asbestos can 
eventually become talc?
    Mr. Metcalf. Right. Right. And I'll add one thing is that--
again, I said this in my opening statement. We often talk about 
asbestos as being a contaminant in the talc, as though it 
were--fell out of an air conditioner, for instance, some 
foreign body that was introduced. But the reality is, is the 
way that talc forms, it forms--the road to talc leads through 
amphiboles and amphibole asbestos. And so it's a relic of the 
geologic process, not a contaminant from some foreign body.
    Ms. Pressley. Okay. So, again, just to be clear--this will 
be my final question. So is it the case and accurate to say 
that talc cannot reliably be asbestos-free?
    Mr. Metcalf. Well, I wouldn't go quite that far. There are 
some--as I said, there are some reactions that have the 
potential--and it's been reported that there are asbestos-free 
versions. There's a mine in Montana. However, I don't think 
anybody has ever tested it to the sensitivity that Bill Longo 
has been discussing.
    So I think, of the ones that people say are asbestos-free, 
I think that's not been demonstrated. I think the 
responsibility is to--is to do the best testing possible and 
make sure that these things are--are asbestos-free. But I 
would--I would be surprised if we could find any that's 
asbestos-free.
    Ms. Pressley. Thank you.
    I yield back.
    Mr. Krishnamoorthi. Thank you, Congresswoman.
    And now Congresswoman Tlaib, five minutes.
    Ms. Tlaib. Thank you so much, Chairman.
    I do want to submit for the record, if there's no 
objection, a Mother Jones article where it shows that Johnson & 
Johnson has poured money into directly influencing Federal 
lawmakers. So far this year, the company has spent $100,000.
    Mr. Chairman, I'd like to submit the article.
    Mr. Krishnamoorthi. Without objection, so ordered.
    Ms. Tlaib. Also, I'd like to submit a press statement from 
the Michigan attorney general, Dana Nessel, who announced a $3 
million share of a multistate settlement with Johnson & Johnson 
and its subsidiary.
    According to--is that Okay?
    Mr. Krishnamoorthi. Without objection, so ordered.
    Ms. Tlaib. Thank you, Chairman.
    But according to this statement, it looks like Johnson & 
Johnson and its subsidiary is to pay over $3 million for their 
deceptive marketing of transvaginal surgical mesh devices. The 
total multistate settlement is nearly $116.9 million.
    I just want to show a pattern of this company. And I know 
it has--but this is very critically important to show. Now they 
actually have subsidiaries so that we have to now worry about 
whether or not in those instances that they're exposing people 
to devices and to chemicals that are very toxic and harmful.
    I know that we've been talking a lot about testing, which I 
think is really critically important, because it gives 
credibility to the pastor's claim as well as others who have 
come forward and said, you know, I'm sick because of being 
exposed to this product.
    In 2009 and 2010, FDA conducted a survey of talc products 
for asbestos testing. And records show that FDA selected AMA 
Labs to conduct its testing for all three surveys.
    And then just last month, AMA detected asbestos in a sample 
of Johnson & Johnson's talc powder. In its public--it's called 
request for quote--solicitation posting for asbestos testing, 
the FDA stated, and I quote, it is now apparent that detection 
of asbestos in cosmetics demands using the most sensitive 
asbestos testing methods available.
    Dr. Longo, your lab conducts these kinds of testing. Are 
you familiar with this at all?
    Mr. Longo. I'm familiar with that--you know, I have a big 
note that says push talk button.
    Ms. Tlaib. Oh, that was me the first month, sir, so don't 
worry about it.
    Mr. Longo. I'm very familiar with the testing, I'm very 
familiar with that request for proposal, and I'm very familiar 
with the detection limits that AMA has for the analysis they 
did in 2010.
    Ms. Tlaib. Yes. So does AMA Labs, the lab FDA has 
consistently contracted with since 2009, employ what you 
consider the most sensitive asbestos testing methods available?
    Mr. Longo. No, they're not. Their 2010 work for FDA, their 
detection limit was approximately 10,000--excuse me--10 million 
asbestos fibers per gram of talc to find one fiber.
    Ms. Tlaib. Wow. Would FDA have detected asbestos in these 
samples earlier in the time if they used more sensitive 
detection methods?
    Mr. Longo. In my opinion, yes.
    Ms. Tlaib. Is there scientific consensus as to which 
asbestos detection method is more sensitive?
    Mr. Longo. I believe the consensus would be that the heavy 
liquid density separation for electron microscopy. It is a 
standard method now for the International Standards 
Organization that has a specific section especially for talc 
using this method that was published in 2014.
    Ms. Tlaib. Why is it essential to use the most sensitive 
methods? I mean, it's clear to me, so we can find it, right?
    Mr. Longo. So you can find it. And also I believe because 
it's hard to get grasp around the fact that if you have 
something that's at trace levels, you can still have hundreds 
of millions of asbestos fibers in there because they're so 
small and weigh so little.
    Ms. Tlaib. And do you believe the heavy liquid density 
separation method, which we just talked about, is the most 
sensitive method available? And you're saying internationally 
that's what's been seen as the process.
    Mr. Longo. Yes, I do.
    Ms. Tlaib. So just to get a little bit more deeper--and I 
can't believe--this is stuff that my son would love, my 14-
year-old. This is out of my area. I just know if somebody is 
harmful, I just want to be able to speak up for them.
    But how does the sensitivity of high liquid density 
separation method detect asbestos in samples that would 
otherwise test negative for asbestos?
    Mr. Longo. Well, if you have a detection limit of 10 
million to 14 million, that would eliminate almost 95 percent 
of the samples that we found that were positive, if we had to 
have that detection limit.
    The heavy liquid density separation method, we've been able 
to increase that sensitivity between 2,000 and 3,000 times. 
That's why we're now seeing what I believe is the reason why 
people have not been seeing it in the past.
    Ms. Tlaib. Okay. Thank you so much, Chairman. I yield the 
rest of my time.
    Mr. Krishnamoorthi. Thank you so much, Congresswoman.
    And thank you to all the witnesses for coming here today. 
Thank you to the audience members for being present for this 
very important hearing.
    I'd like to thank our witnesses for their testimony.
    Without objection, all members will have five legislative 
days within which to submit additional written questions for 
the witnesses to the chair which will be forwarded to the 
witnesses for responses. I ask our witnesses to please respond 
as promptly as you are able.
    This hearing is adjourned.
    [Whereupon, at 3:28 p.m., the subcommittee was adjourned.]

                                 [all]
</pre></body></html>
